Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




SCHOOL-BASED HEALTH CENTERS
     AND MANAGED CARE:

       EXAMPLES OF COORDINATION




              DECEMBER   1993
                 OFFICE OF INSPECTOR GENERAL

The missionoftheOfficeofInspector
                                General(OIG),asmandatedbyPublicLaw 95-452,

                                                                         as

amended, istoprotect         oftheDepartment
                   theintegrity              ofHealthandHuman Services’

                                                                      (HHS)

programsaswellasthehealth andwelfare            served
                                   ofbeneficiaries   bythoseprograms.

                                                                     This

        mission
statutory              outthrough
               iscarried                   network
                                a nationwide             investigations,

                                                  ofaudits,          and

          conducted
inspections        bythreeOIG operating
                                      components:theOffice              the

                                                         ofAuditServices,

OfficeofInvestigations,
                    andtheOfficeofEvaluation             The OIG also

                                            andInspections.          info­

theSecretaryofHHS ofprogramandmanagement  problemsandrecommends       to

                                                               courses

correct

       them.


                    OFFICE OF AUDIT SERVICES

The OIGS OfficeofAuditServices
                            (OAS)providesall
                                           auditing
                                                  services
                                                         forHHS, either

                                                                      by

         audits
conducting          own audit
              withits               orbyoverseeing
                            resources                 workdonebyothers.

                                                  audit

Auditsexaminetheperformance
                          ofHHS programsand/or  grantees
                                              its                   in

                                                       andcontractors

carrying      respective
       outtheir                   andareintended
                       responsibilities                  independent

                                                toprovide

          ofHHS programs
assessments                         inordertoreduce
                        andoperations                   abuse,

                                                   waste,     and

mismanagementandtopromoteeconomyandefficiency        theDepartment.

                                            throughout


                    OFFICE OF INVESTIGATIONS

The OIGS Office
              ofInvestigations
                           (01)conducts
                                      criminal,
                                             civil,

                                                  andadministrative

investigations       ofwrongdoing
           ofallegations         inHHS programsortoHHS beneficiaries

                                                                  andof

     enrichment
unjust                   The investigative
              byproviders.                  of01 leadtocriminal

                                      efforts                 convictions,

administrative     orcivil
           sanctions,                 The 01 also
                        moneypenalties.         overseesState       fraud

                                                            Medicaid

      units
control                andprosecute
          whichinvestigate             andpatient
                                   fraud                          program.

                                                 abuseintheMedicaid


           OFFICE OF EVALUATION AND lNSPECITONS

The OIGS Office
              ofEvaluation
                        andInspections
                                     (OEI)conductsshort-term
                                                          management

                                                                    and

programevaluations   inspections)focus
                (called        that           ofconcern

                                       on issues       totheDepartment,

           andthepublic.
theCongress,                     andrecommendations
                       The findings                       inthese

                                                   contained     inspection

      generate
reports           accurate,
             rapid,                 information
                         andup-to-date                      vulnerability,

                                              on theefficiency,

andeffectiveness          programs.

             ofdepartmental


Thisreport
         wasprepared
                   underthedirection
                                  ofWilliam
                                          C.Moran,Regional

                                                         Inspector

       andNatalie
General,                          Inspector
                Coen,DeputyRegional             Office
                                         General,              and

                                                     ofEvaluation

Inspections,                inthis
         RegionV. Participating       were:

                                 project


REGION V                                              HEADQUARTERS
JosephL.Penkrot
              (Project

                    Leader)                           MaryBethClarke

    R.Meara(LeadAnalyst)

Ellen

      J.Donarski

Jeffrey

 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




SCHOOL-BASED HEALTH CENTERS AND

         MANAGED CARE:


        EXAMPLES OF COORDINATION




            DECEMBER   1993   05-92-00681

                      TABLE                      OF                  CONTENTS

                                                                                                                               PAGE



INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


ExAMPm            . . . . . . . .. o........             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


    “Multnomah County, Oregon...                 .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   . ...4

    �St. Paul, Minnesota . . . . . . .       .   .
                                                 .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   . ...6

    .Baltimore, Maryland . . . . . .         .   .
                                                 .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   . ...7

    “Minneapolis, Minnesota . . . .          .   .
                                                 .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   ...11

    “Brooklyn, New York . . . . . .          .   .
                                                 .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   ...13

    “Hillsborough County, Florida..              .   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   ...15

    .San Francisco, California . . .           ...   .   .   .   .   ......   .   ..   .   ....   .   .   ....   ....   ....   ...18


APPENDICES          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l

AOregon        Senate Bi11760 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B     Contract Between Multnomah County and Good Health Plan . . . . . . . . . . . . B-1


(2 Contract Between Health Start and RamseyCare                                        . . . . . . . . . . . . . . . . . . . ..C-1

                         INTRODUCTION

PURPOSE

The purpose of this report is to describe a variety of ways school-based health centers
coordinate services with managed care providers. The examples described here were
found while collecting data for our report, School-basedHealth Centers and Managed
Care, 0EI-05-92-O0680. That report examined the relationship between school-based
health centers and managed care providers.

BACKGROUND

Both school-based health centers and managed care were created to increase access to

health care services. Some managed care providers recognize the special expertise

school-based health centers can provide to meet the compelling health needs of

adolescents. A number of these managed care providers have entered into

agreements with school-based health centers so adolescents covered by their plan have

the advantages of medical treatment at both sites.


This report describes seven examples of coordination between school-based health

centers and managed care providers. In our earlier report, after we reviewed current

literature and consulted with experts on this topic, we visited all known sites where

coordination exists. During on-site visits we used in-depth, structured personal

interviews with representatives from the school-based health centers and managed

care providers. The seven examples cited here represent different methods of

coordination. Because agreements are new and still being developed, this report does

not represent a comprehensive list of agreements between managed care providers

and school-based health centers. Nor does it address all operational and policy

related questions which present themselves in discussions of this topic, such as the

appropriateness of funding streams between managed care organizations and school-

based health centers. For further background information on school-based health

centers and managed care, consult the companion report, School-basedHealth

Centers and Managed Care.


The level of coordination between managed care providers and school-based health

centers, where it exists at all, varies widely across the country. The agreements

described in this report represent cooperation at different points along a spectrum,

ranging from school-based health centers being reimbursed for all services they

perform for managed care plan children, to school-based health centers needing prior

authorization from a managed care plan before providing a very limited number of

services. Managed care plans and school-based health centers are still evolving;

agreements between them are embryonic.





                                           1

As health care reform takes shape, it is crucial to examine how these two types of
medical providers coordinate. Both managed care and school-based health centers
have important roles in providing universal access to health care services.




                                           2

                               EXAMPLES


For each example, we describe the community where the agreement originated, the
conditions that promoted coordination, and the mechanism for coordinating.

Mtitnomah County,Oregon: State law requiring Medicaid managed care providers to
coordinate with school-based health centers

St. Pad Minnesotix Legal contract between managed care provider and school-based
health center

Baltimore,Maryland Protocol for referral and treatment   between managed care
provider and school-based health center

Minneapolis,Minnesota: Including managed care providers in coalitions which fund
and develop school-based health centers

Brooldyq New York  Publicentities
                               thatadminister
                                           bothschool-based
                                                         healthcenters
and managed careplans

Hillsboro@    County,Floridz Managed care providers authorize school-based health
centers to provide care and bill Medicaid directly for service

San Francisco,California: Managed caregivesexpedited
                                                   patient
                                                         careon school-based
healthcenterreferrals




                                              3

                      Multnomah County, Oregon

State law requiringMedicaid managed care providersto coordinatewith school-based
healthcenters

State laws are playing a major role in increasing coordination between school-based
health centers and managed care providers in Oregon. First, in 1991, Oregon enacted
Senate Bill 760 (SB 760) affecting county health departments “and other publicly
supported programs” that provide services to children and adolescents. (Appendix A
contains a copy of SB 760.) The bill requires prepaid Medicaid health providers to
contract with these public health providers for certain types of services. Since all
Oregon school-based health centers are publicly funded, they are included under this
statute. Then in 1992, Oregon passed the Oregon Health Plan, a State health care
reform, setting a February 1, 1994 deadline for agreements between managed care
providers and public health providers.

Under SB 760, Medicaid prepaid health plans are required to pay public health
providers for immunizations, diagnosis and treatment of sexually transmitted diseases,
and testing and treatment of tuberculosis. The managed care providers are also
encouraged to contract with these providers for maternity case management, well-child
care, and pre-natal care. Under this law, public health providers bill Medicaid directly
on a fee-for-service basis for HIV counseling and family planning services.

In response to SB 760 and the Oregon Health Plan, negotiations are underway
between the Multnomah County health department and the 12 managed care plans in
Multnomah County. In addition to the community based clinics operated by
Multnomah County, the County also operates seven school-based health centers.
Services provided at the school-based health centers are considered part of the
County’s primary care clinic system.

While mandated contracts have begun to open lines of communication between
managed care providers and school-based health centers, school-based health centers
still will not receive reimbursement for services they provide that are not specifically
covered by SB 760.

One managed care plan, Good Health Plan of Oregon, has contracted with
Multnomah County to meet the requirements of SB 760. (Appendix B contains a
copy of this contract.) Although this fee-for-service contract runs through 1993, no
bills have been submitted to the managed care plan for any Multnomah County
semices to date. Multnomah County is working with all managed care plans to agree
to terms so they may establish common billing protocols, procedures and
communications. Without this standardization, receiving reimbursement from
managed care plans may result in prohibitive costs to the county.




                                             4

Unlike other areas where school-based health centers have negotiated with managed
care providers, Oregon’s school-based health centers face few obstacles when keeping
certain health care services confidential. Under Oregon law, children who have
reached age 15 have control over their medical care.




                                          5

                             St. Paul, Minnesota

Legal contractbetween managed care provider and school-basedhealth center

Comprehensive school-based health centers and managed health care emerged in the
early 1970’s in St. Paul. Today, Health Start, a nonprofit corporation, operates school-
based health centers in six St. Paul high schools, seining over 3,000 students annually.
Approximately half of the students treated at the St. Paul school-based health centers
are covered by Medicaid. Health Start has been a Medicaid fee-for-service provider
and obtains a sizable amount of its funding from Medicaid billings.

In the spring of 1993, the Minnesota State Medicaid agency required Medicaid
recipients in Ramsey County, where St. Paul is located, to choose a managed care
provider. The State also encouraged Medicaid managed care providers to coordinate
with school-based health centers. By the end of 1994, Health Start estimates that 75
percent of school-based health center enrollees will be covered by managed care
plans.

Anticipating the considerable impact Medicaid managed care would have on their
ability to continue providing sexvices and the reduction in their largest funding stream,
Health Start began negotiations with RamseyCare, the largest Medicaid managed care
provider in Ramsey County. Both parties agreed to a contract that made the school-
based health centers primary care clinic providers and care coordinators for
adolescents enrolled in RamseyCare. (Appendix C contains a copy of this contract.)

Under the contract, RamseyCare reimburses Health Start on a fee-for-semice basis,
using Medicaid reimbursement rates plus 15 percent. Health Start also bills
RamseyCare for Early, Periodic, Screening, Diagnostic, and Treatment (EPSDT)
services provided to patients.

This contract allows Health Start to receive reimbursement for confidential services
the school-based health centers provide (e.g. mental health sexvices). In the past, the
school-based health centers would not bill certain services to Medicaid because of the
Medicaid requirement to noti~ the parents by an explanation of benefits of services
provided to their children. This requirement had the potential to inhibit students from
using services, so the school-based health centers chose not to bill for these services.

Medical information is exchanged between Health Start and RamseyCare. The
school-based health centers provide medical information to RamseyCare through their
billing for services. In addition, RamseyCare must give prior authorization for all
specialty semices. In turn, RamseyCare notifies their primary care clinics whenever
emergency room visits are used.

Quality of care is also addressed in the contract. Health Start school-based health
centers participate in RamseyCare quality assurance and utilization review programs.


                                             6

                            Baltimore. Maryland

Protocol for referral and treatmentbetween managed care provider and school-based
healthcenter

The Baltimore City Health Department began operating school-based health centers
in 1985. It now operates 7 of the 10 school-based health centers in middle and high
schools throughout the city. The centers provide a range of primary and preventive
care aimed at improving primary care for children, promoting positive health
behaviors, and increasing health knowledge and decision making skills. The full time
staff at most school-based health centers includes: a nurse practitioner, a school nurse,
a mental health counselor, a health educator, a medical office assistant, and a health
aid. Part time staffing includes supervisory physicians, additional nurse practitioners,
substance abuse counselors, case managers, social workers, and nutritionists.

As part of services delivered at the Baltimore school-based health centers, case
managers help students make appointments with primary care providers for EPSDT
screenings. Many children are enrolled in both a managed care program and a
school-based health center. When the case managers noticed that some children with
managed care providers waited as much as 6 months for appointments, the school-
based health centers began providing EPSDT services to students assigned to managed
care providers.

In the school-based health centers, an increasing number of children changed from
fee-for-service Medicaid to managed care Medicaid. Many of the students the school-
based health centers were treating belonged to Total Health Care, a managed care
plan operated by a federally funded community health center. The school-based
health centers, which had always provided sexvices to some of these children, initiated
a relationship with Total Health Care to become a sub-contractor providing EPSDT
exams for students who were not using Total Health Care. At first, this was a
contentious issue because Total Health Care viewed this as the school-based health
centers taking patients away from their medical home. They saw it as a threat to
continuity of care. Eventually, both providers met and worked out an informal
agreement on how the Total Health Care enrollees should be treated.

The agreement defines when the school-based health centers should see patients and
when they should be referred to Total Health Care. They devised a referral process
with a flow chart outlining different situations students may present and what actions
should be taken by the school-based health center. The flow chart on the following
page gives detail about how and where Total Health Care students receive semices
depending on the situation. In a letter of agreement to the Baltimore Health
Department, Total Health Care guaranteed reimbursement at Medicaid rates for
authorized semices provided in school-based health centers.




                                            7

          BALTIMORE CITY HEALTH DEPARTMENT SBHCS & TOTAL HEALTH CARE HMO                               CLIENTS

                                                          FiAw SHEET


                  I
                             I                             I                            I

           mChild needs
            episodic cue                   m                                 u
                                                 “



                                      1.	 PNPc.aUs911&ti
                                          patient
                                               to Emrqpcy
                                                                  PNP sends
                                                                          referral      14
                                                                                                -Jpiz#i$q

                                                                                                 1                1




      1                           I
                                         %om
                                      2. PNPnotificacrthat
                                                                   m.         ‘                   -Q=

                  1
                                         paticntcmvmyto
                                         Emergency Room
                                      3. crwiUDotify@=l’8

                                                                   L Makesappt.
                                                                   2. Notca
                                                                          “school
bcalth”
                                                                      incommcntncdmd

                                                                                                EiREEil

Go
                                      PCP

                                                                      cOmp@X system

                                                                   3. CQmplcta �ppt. dip&
                                                                      a.suLdscopytopd



                                                                                                El
                                                                      b. Saukuqym*l             THC  will track
                                                              1

                                                                         nurse                  cbild&wiu
                                                                      c. Tickkxs a copy to      SchAdc for
                                                                         lnakBraniQducau        ~~
                                                                         d8y before appt-


               H-N


          Paticntseen by school
                                                 v

                                      Child satto THCwithti
                                      rcfa’ral&~--mv”

                                                     II
                                                                   4. sends
 rcfard & alv. ta
                                                                      Nursing Manage at
                                                                      patient’sPcP site

                                                                                  J1

          PNP&rcport=@m
          THC Medical Recmh
Under the agreement, the school-based health centers recognize the managed care
provider as the medical home for the child. The school-based health centers try to
arrange for students to receive care at Total Health Care. When a Studenthas an
acute care need, the nurse practitioner at the school-based health center calls Total
Health Care’s clinical tracking department to try to arrange for an appointment.    If
Total Health Care cannot see the student the same day, the school-based health
center is authorized to provide the treatment needed.

For regular EPSDT screenings, if the student has never been to Total Health Care,
the school-based health center performs the screening and sends a copy of the
information to Total Health Care’s records department. The school-based health
centers learn which students have never been to Total Health Care by sending a
computer file with students registered for the school-based health centers to Total
Health Care and having Total Health Care indicate which ones are members, and
which of these have never been to Total Health Care. In all other instances, Total
Health Care performs EPSDT screenings. The school-based health centers facilitate
these EPSDT screenings by making appointments for students to be screened and by
sending appointment reminders home with students.

Whenever the school-based health center provides any service to a student enrolled in
Total Health Care, they must send a bill for the service and a medical report to be
included in Total Health Care records. This helps preserve the continuity of care for
patients.

In addition to authorizing and reimbursing the school-based health centers for services,
Total Health Care has several responsibilities under the agreement. When scheduling
appointments, Total Health Care gives priority to students referred by the school-
based health centers. When Total Health Care sees a patient referred by the school-
based health centers, a referral form is sent back to the school-based health centers to
confirm that the student has completed the referral.

Both Total Health Care and the Baltimore Health Department said that the biggest
barrier they had to overcome before reaching an agreement was who would have
“ownership” of the patient. At first, the school-based health centers did not want to
recognize the managed care provider as the medical home for students. At the same
time, Total Health Care felt they should be responsible for all care of each patient.
They looked at visits to the school-based health centers as out-of-plan utilization, and
did not want to authorize screenings or reimburse the centers for the bills submitted
despite their long delays in scheduling EPSDT screenings. Each provider had to
develop a mutual respect for the other and see how the other was concerned for the
patients.




                                             9

One way that Total Health Care and the Baltimore Health Department are
developing a mutual understanding is through special events that expose each provider
to the other and teach students how to use services. The school-based health centers
held an educational session for all Total Health Care physicians to explain school-
based health centers. ~eyintited     physicians tothehealth  center site andaUowed
them toseehow       andwhere their patients would retreated.   Theschool-based  health
centers sponsor field trips to Total Health Care for students who have never been to
their clinics before. The students are transported to the Total Health Care clinics by
bus, and Total Health Care teaches them how to access the clinics, provides lunch,
gives a tour, and allows students to meet the doctors. Parents may also join this trip
to Total Health Care.

Duringthefirst
             5 monthsoftheagreement,TotalHealthCarereimbursed
the

Baltimore
        HealthDepartmentfor120EPSDT visits. They alsowillreimburse

                                                                 the

HealthDepartmentforsome authorized
                                 follow-uptreatment     increasing

                                                  visits,       revenue

fortheBaltimore          healthcenters.
               school-based                     tothis,
                                      In addition                 has

                                                       coordination

                 ofcaretostudents
improvedcontinuity                          wouldnothaveit.

                                who normally


Wliile the agreement between Total Health Care and Baltimore’s Health Department
allows students to receive EPSDT screening at the school-based health centers, it
cannot address many other issues regarding the school-based health centers and
managed care providers. The agreement covers a limited number of services, omitting
issues such as how confidential reproductive health services should be delivered by
school-based health centers. It does not address how services other than EPSDT
should be reimbursed, and State Medicaid managed care contracts are unclear on this
issue, creating dispute over which services should be reimbursed and at what rates.
Also, the agreement applies only to interaction with Total Health Care. It cannot
address how the school-based health centers coordinate with other managed care
providers in the Baltimore area.

Even with an agreement, Baltimore school-based health centers still face barriers
providing services to students who need them, collecting reimbursement for these
services, and keeping patient information confidential.




                                           10

                         Minneawlis.          Minnesota

Includingmanaged care providersin coalitionswhich fund and develop school-based
healthcenters

The Minneapolis Board of Education established school-based health centers in their
high schools 14 years ago. Today these school-based health centers serve over 10,000
students. Hennepin County, the city of Minneapolis, the Minneapolis Children’s
Medical Center, the University of Minnesota, the Robert Wood Johnson Foundation,
Maternal and Child Health block grants, and the local health department provide
major funding for the school-based health centers.

There is broad based community support for the Minneapolis school-based health
centers. Four health care agencies are major medical sponsors for the school-based
health centers, providing medical staff and other support. In addition to these
sponsors, numerous other agencies co-locate staff in the school-based health centers.

The Minneapolis-St. Paul area is home to a very competitive managed care market.
As Minnesota Medicaid expanded managed care into Hennepin County, Medicaid
recipients were required to choose a managed care plan for themselves and their
children. Forty percent of the school-based health center patients are Medicaid
managed care patients. Of the managed care plans, Medics, a primary care case
manager plan, currently covers approximately 70 percent of the Minneapolis Medicaid
enrollees.

In recent years, some of the school-based health center’s sponsoring agencies
attempted, without success, to bring together all involved in adolescent health to
discuss the role of school-based health centers in the community and to obtain
additional funding or support. But in 1992, Medics performed a utilization study of
their members and found that adolescents were not receiving many primary care
services from Medics providers. In February 1993, school-based health centers and
their community sponsors began negotiating with Medics and other managed care
providers to address school-based health centers’ providing services to adolescents
covered by managed care providers.

As a result of these meetings, Medics, through a foundation, is underwriting the full
cost of the Minneapolis school-based health center at Southwest High School for a
year. During this year, this school-based health center will not bill Medics for any
treatments provided to children enrolled with Medics.

The other managed care plans are collaborating with the school-based health center
program and are considering pledging $1 million to fund the other Minneapolis school-
based health centers. By November 22, 1993, these managed care providers will
announce their contributions to this effort. In the interim, Medics is providing an
additional $110,000 to keep the school-based health centers operating.


                                           11

After thisschoolyear, Medics and the other managed care providerswill evaluate
their experiencesand collaboratewith school-basedhealth centersto decide which
healthsewices shouldbe deliveredin school-basedhealth centersand which semices
shouldbe delivered elsewhere.




                                        12

Public entitiesthat administerboth school-basedhealth centersand managed care
plans

We visited three communities where federally funded community health centers
operate school-based health centers as well as managed care plans. To illustrate this
example, we will discuss one of these community health centers, the Sunset Park
Family Health Center of Lutheran Medical Center in Southwest Brooklyn, New York.

Sunset Park Family Health Center is a federally funded community health center that
operates 10 school-based health centers in elementary and middle schools in the
Brooklyn area. They also provide an array of community-based outreach and
education programs, a mental health and substance abuse program, and two satellite
health centers in Brooklyn. They have incorporated their school-based health centers
into the overall system at Sunset Park.

The school-based health centers serve large numbers of Medicaid eligible children.
Sunset Park Family Health Center bills about 41 percent of the visits to the school-
based health centers to Medicaid. Sunset Park recently started Health Care Plus, a
managed care plan for Medicaid clients, and students enrolled in Health Care Plus
may choose a school-based health center as a primaxy care provider.

When school-based health centers are the primary care providers for students, they
need no authorization to treat patients enrolled in Health Care Plus, and they will be
reimbursed through Sunset Park for the services provided. Because the school-based
health centers are part of the managed care network continuity of care is not an issue
for these students.

Until recently, Sunset Park faced barriers to integrating the school-based health
centers into their managed care network. One problem Sunset Park had to address
was how to ensure that other providers in the Family Health Center network could
access patient information when necessary. Sunset Park has created a database system
that should address this issue. An Active Patient Identification System contains
demographic information and visit histories on all patients using any of the Sunset
Park Family Health Center facilities, including the School Health Program. The
school-based health centers are electronically linked to this system, so that visit
information is available network-wide.

While this arrangement has potential benefits for children enrolled in Health Care
Plus, Sunset Park still faces many obstacles to treating children at school-based health
centers. For example, parents may not understand that they can choose their child’s
school-based health center as the primary care provider in Health Care Plus. If
parents do not choose the school-based health centers as a primary care provider for



                                            13

their children,and the childrenreceivecare at the school-basedhealth center,
reimbursementis not provided and coordinationof care becomes more difficult.

Another drawback to this arrangement is that it does not address how or whether the
school-based health centers treat students enrolled in other managed care plans.
Because Sunset Park runs a managed care program, other managed care providers see
Sunset Park as a competitor for patients. This impedes coordination with other
managed care providers whose enrolled patients receive services at the school-based
health centers.




                                         14

                     Hillsborowh County. Florida

Managed care providers authorizeschool-basedhealthcentersto provide care and bill
Medicaid directlyfor seMce

Several States told us that some managed care providers authorize school-based health
centers to provide services to children enrolled with managed care providers. One site
we visited, the Hillsborough County Public Health Unit in Tampa, Florida, sponsors
several school-based health centers that serve many children enrolled with managed
care providers. The Hillsborough County Public Health Unit recently began to seek
authorization to perform EPSDT screening and limited sexvices on managed care
enrolled students who are registered at their health centers.

The State of Florida’s Department of Health and Rehabilitation Semites awards over
$9 million in Supplemental School Health Grants to 192 schools throughout Florida.
This grant program provides funds for school health projects at nine Hillsborough
county schools at the elementary, middle, and high school level. Four of these
schools deliver services through on-site school-based health centers. This program,
called the Healthy Student and Healthy Young Student program sexves two high
schools, one middle school, and one alternative school for pregnant teenagers. The
Hillsborough County Health Department manages the project with close cooperation
from the Hillsborough County School System.

The schools involved in this program share three mental health therapists, a clinic
nurse, a nurse practitioner, a community health nurse, a nutritionist, health aides, a
program manager, and a physician. These professionals deliver a range of services,
including: triage for medical injuries and illness, health education and counseling,
mental health assessment and counseling, injury prevention, pregnancy counseling
semices, and baby and mother semices. The alternative school for pregnant teenagers
provides all pre-natal and post-partem care for its enrolled students and their newborn
babies up to 6 weeks following the birth.

The project is funded primarily through the Supplemental School Health Grants, but
school-based health centers also receive in-kind contributions of staff from the County
Health department. The County Public Health Unit bills for Medicaid services
provided at the school-based health centers. The County Public Health Unit has set a
goal for school-based health centers to provide EPSDT screenings to all Medicaid
eligible students in these schools.

To ensure that all children are screened, the school-based health centers are trying to
obtain authorization to screen those children enrolled with Medicaid managed care
providers. Without an authorization number, however, any service the school-based
health centers provide to Medicaid children enrolled in managed care plans will not be
reimbursed by Medicaid. Due to time constraints and the priority of screening eligible



                                           15

students, the school-based health centers are focusing authorization                               efforts on EPSDT
services.

Students registering for school-based health centers must indicate if they are Medicaid
eligible. If eligible, the school-based health centers ask students to supply their
Medicaid identification number. Using the Medicaid identification number, or in some
cases the child’s name and supporting information, the county public health unit
generates printouts of the Medicaid eligible children and their primary care providers.
The school-based health centers then separate out those who are assigned to a
Medipass provider (Florida’s managed care Medicaid plan for individual physicians to
become primary care providers), or to a managed care health plan.

When a student assigned to a managed care provider needs an EPSDT screening, staff
from the Hillsborough county school-based health centers call the primary care
provider for that student. They explain that the health center will perform the
screening and request an authorization number so that they may bill Medicaid for the
service. If the physician agrees, the county public health unit receives an authorization
number for that particular service and performs the screening. The school-based
health centers can then bill Medicaid for the service through the county public health
unit and be reimbursed at the regular Medicaid rate for EPSDT.

Sometimes, the county public health unit does not have time to receive pre-
authorization for screenings. In these cases, they perform screenings on children who
need them and bill Medicaid for the sexvice. These Medicaid bills will be rejected or
accepted based on whether the managed care provider authorizes the sexvice.1

The county public health unit also has billed Medicaid for pregnancy related semices
provided at the alternative school. Using the same process as with the EPSDT
screening, the school-based health center calls the primary care provider to authorize
care. Usually, the primary care provider will authorize the school to provide
pregnancy related services to this hard to reach population. In this case, the school-
based health centers are reimbursed at the regular Medicaid rate for a pregnancy.

The biggest  barrierstothistypeofcoordination    havebeen overcoming
   the

competitive  natureofmanaged care,    and theschool-based healthcenters’
   lackoftime

toobtainauthorization  toprovideservice.    For providers

                                                        tomake money,theymust

providesetices.By authorizing    someone elsetodeliver  service  totheir  patients,
they

potentially losesome income,and theymay feelthatinthelongrun,theywill
          lose
patients. This issue makes some primary care providers reluctant to authorize the
school-based health centers to provide care. The other barrier is that calling for



          4
           I
                     Since Hilfaborough County started requesting authorization for EPSDT screening, obtaining authorization haa
beeome more difficult beeauae the State Medieaid agency no longer accepts authorization for aeMcea after they have been
provided. This need to pre-authorize aemieea will delay a child’s screening or force the school-baaed health centers to perform
screening without reimbursement when there is no time to obtain authorization numbers before delivering amvkes.



                                                              16

authorization of care is time-consuming, particularly in schools where only a few staff
members run the school-based health centers.

Hillsborough county says they have been able to build the trust of managed care
providers in many cases because the physician who works at the school-based health
centers is well-known and respected in the community.

The issue of time constraints continues to be a problem, but Hillsborough county tries
to address this by prioritizing their calls to managed care providers. The County
Public Health Unit calls physicians they have worked with before, or physicians who
will be more likely to authorize service first. They still screen all the students who
need it, regardless of insurance status. But, by prioritizing their calls, school-based
health centers maximize the reimbursement they will receive for performing EPSDT.

The arrangement is helpful because it allows the schools to serve students enrolled in
managed care conveniently, and the school-based health centers are reimbursed for
services that have gone uncompensated in the past.




                                            17

                         San Francisco. California

Managed care gives expeditedpatientcare on school-basedhealth center referrals

Balboa Teen Health Center was established in 1986 in cooperation with the
Department of Public Health and the San Francisco Unified School District. Since
opening, Balboa’s Teen Health Center has provided a full range of primary care,
including routine examinations, acute care, mental health programs, health education,
and other semices. All services are provided confidentially and at no charge to Balboa
High School students, regardless of their insurance status. The only requirement for
treatment is that parents sign a blanket waiver consenting to services when enrolling
children at the school-based health center.

As part of a baseline budget for children’s programs established by proposition J,
California’s Children’s Budget Initiative, Balboa Teen Health Center receives funding
from the local health department. This funding was intended to cover Balboa Teen
Health Center’s financial needs for 10 years; however, recent budget difficulties have
threatened the stability of this funding source. In addition to these funds, the State of
California recently authorized Balboa Teen Health Center to bill for services provided
to students enrolled in Medi-Cal, California’s Medicaid program. However, none of
the San Francisco area managed care providers authorize Medi-Cal to reimburse
Balboa Teen Health Center for services it provides to their patients.

Many ofthestudents atBalboaHigh Schoolareinsured

                                               withKaiserPermanence,

     privately
either                                               tosupplementits

             or throughtheMedi-Calprogram.Inan effort

healthcarecapabilities
                    and toguaranteecontinuity     BalboaTeen Health

                                           ofcare,

Centerhasestablishedan expedited      process

                               referral     withKaiserPermanenceforall

students

        coveredby thatprovider.


For students covered by Kaiser Permanence, whether Medi-Cal recipients or not, the

Balboa Teen Health Center performs a triage function. Balboa provides basic primary

or acute care to students who register for the health center. If follow-up or treatment

beyond the capabilities of the Balboa Teen Health Center is necessaV, the health

center immediately refers the student to Kaiser Perrnanente. Balboa Teen Health

Center telephones the physician contact at Kaiser Perrnanente, explains the problem,

and schedules an appointment for the patient. For these students, continuity of care is

ensured.


Balboa Teen Health Center shares patient information with Kaiser only when

referring students for emergency care, follow-up visits, or additional services not

available at Balboa. Although information is usually shared informally by telephone or

facsimile machine, all information shared outside the school-based health center with

facilities other than the San Francisco Department of Public Health recluires specific

patient release of information.




                                            18

There is no formal contract between the two providers. However, Balboa Teen

Health Center recently drafted a letter to the physician contact at Kaiser Teen Clinic

in San Francisco to create a more formal structure for their working relationship.

Kaiser has agreed to and followed the terms of this letter. While this agreement helps

ensure continuity of care for Kaiser Permanence patients, it does not address the

funding issues raised when school-based health centers provide uncompensated care to

students enrolled in managed care plans.





                                           19

APPENDIX          A

OREGON SENATE BILL 760




          A-1
          -..
..

     ..


      ,
                                      66th OREGON LEGISLATIVE ASSEMBLY-1991
                                                                       Regular

                                                                            3esskn

                                                               Enrolled
                                                  Senate Bill 760
                Sponsored by Senator    KENNEMER; Senators BRENNEMAN, CEASE, COHEN, GOLD, HAMBY,
                    McCOY, TROW, Re resentatives   BARNES,BAUMAN, CARTER,CLARK,HAYDEN, MASON,
                    McTEAGUE, MEE&, MILLER,SHIPRACK,SOWA, STEIN (at the request       of Clackamm
                    County, Coalition of Local Health
                                                    Oflieiald


                                                                .. .    Z37
                                                         .. .....
... .......—-”...
                                                   CHAPTER..-




                Relating
                      topoverty
                             level

                                 medical           programs.

                Be It Enacted   by the   People
                                              oftheState

                                                       of Oregosx

                      SECI’ION 1. h is the purpose of this Act to take advan~ge of opportunities tcx

                      (1) Enhance the state �nd local public health partnership

                      (2) Improve the access to care �nd health status of women and childrem �nd

                      (3) Strengthen public health programs and semices at the county health department level.

                      SECI’ION Z The Adult and Family Services Division, the Oflice of Mtilcal Assistance               Pro-

                grams and the Health Division shall endeavor to develop �greements with local governments to fa­
                cilitate    the enrollment     of poverty    level me&cal assistance       program clients. Subject to the
                availability of funds therefor, the �greement shall be structured to allow flexibility by the state and
                local governments and may allow �ny of the following options for enrolling clients in poverty level
                medical assistance progrm.
                      (1) Initial processing shall be done at the county health department by employees of the county,
                with eligibility determination      completed at the local orlce of the Adult and Family Services Divi­
                sion;
                      (2) Initial processing and eligibility determination shall be done �t the county health department
                by employees of the Adult and Family Services Division: or
                      (3) Application     forms shaJl be made �vailable �t the county health department with initial
                processing and eligibility determination         shall be done at the local off~ce of the Adult and Family
                Services Dlviaion.
                      SECTION S. To capitalize on the successful public health programs provided by county health
                department       �nd the sizable investment by state and local governments inthe public health system.
                state agencies     shall  encourage agreements that allow county health departments and other publicly
                supported programs to continue to be the providers of those prevention and health promotion ser­
                vices now �vailable, plus other maternal �nd child health services such �s prenatal outreach and
                 care, child health services �nd family planning services to women �nd children who become eligible
                 for poverty level medical assistance       program benefits pursuant to section 4 of this Act.
                       SECI’ION 4. [n order to make advantageous           use of the system of public health services avail­
                 �ble through county health departments and other publicly supported programs �nd to insure access
                to public heaith services through contract under ORS chapter 414, the state shall:
                       (1)
Unless cause can be shown why such �n agreement is not feasible, require and approve
                 agreements between prepaid health plans and publicly funded providers for authorization of payment
                 for point of contact services in the following categories:




                                                                  A-2
.




         (8) hnmuniz4tionq

         (b) Sexually transmitted diseaseq �nd

         (c) Other communicable diseases;

         (2) Continue  to 811ow  enrollees in prepaid health plans to receive family planning aervicea from
    fee-for-service providem,
         (3) Encoura~e �d ammove
                               ..        �greements between prepaid health plans �nd publicly funded pro­
    videm for �uthoridon       of �nd payment for services in the following ‘categories:
         (a) Maternity case management;
         (b) Well-child care; �nd         “
         (c) Prenatal care; �nd
         (4)
 Recognize the social value of partnerships    between county health departments     �nd other
    publicly supported programs �nd other health providers, �nd take �ppropriate measures to involve
    publicly supported health care �nd service programs in the development           �nd implementation   of
    managed health care programs in their �reaa of responsibility.




    Passed by Senate May s                          19Dl                                                                  Ree8ived by tkvo~


                4d%z9’a%?&
               .............
                           .
                           .—”.      .   .   . .   . . .   . .   . .   . .   .   . .   .   . .   .   . . . . . . . .




               ..........c........
               -----p~%:




    Passed by House %e                       4, lWl
                                                                                                                          Pii   by OKI    of Secmtmy   of StatQ:

                                                                                                                          ../.f:&i.&.M    ..J2i.2d5
                                                                                                                                         ..   . . .._-.               ,*1




                 3—                                                    Speaker of Housa
                                                                                                                                     ..._?&
                                                                                                                                     . ............../.L4
                                                                                                                                                       ................
                                                                                                                                                                ?
                                                                                                                                                          Secretary0[ St




    Enrolled   Senate             Bill 760                                                                                                                         Page 2




                                                                                                                       A-3

                 APPENDIX           B

CONTRACT BETWEEN MULTNOMAH    COUNTY AND GOOD HEALTH PLAN




                             B-1
                                   Letter   of Agreement



1.	   Sewices will be provided by the Multnomah County Department of Health, hereinafter
      referred to as “Provider”, to Good Health Plan of Oregon Medicaid-sponsored
      members, who are Office of Medical Assistance Programs (OMAF’) eligible recipients
      who have enrolled with the Good Health Plan, hereinafter referred to as “Members”, or
      “Membet’. Sewices will be provided for immunizations, sexually transmitted diseases,
      and other communicable diseases of public health concern. Good Health Plan of
      Oregon will hereinafter be referred to as “Health Plan”.

2.	   Health Plan will furnish Provider each month with a current roster of enrolled Members,
      which will indicate all existing Primary Care Physician designations.

3.	   Services will be provided within the scope and guidelines of S6 760 with the intent to
      involve publicly supported health care and service programs in the development and
      implementation of managed health care programs in their areas of responsibility.

4.	   Provider agrees to bill services to Health Plan, not to Members. Provider will make
      every effort to bill in a timely manner. Bills will be submitted beginning 14 days after
      date of service, but they may be submitted up to one year from date of sewice. Any
      bill submitted more than one year after the date of seMce will not be payable by either
      Health Plan or Member. Provider will submit bills on standard HCFA 1500 forms, using
      CPT codes and [CD-9 codes. Services for individual Members will be billed separately,
      and Provider will bill for all services provided to Member regardless of whether services
      are covered by this Agreement. Health Plan will pay only for those sewices covered
      by this Agreement. Clean claims will be paid within 30 working days. Provider must
      appeal any claims adjudications or other matters within 90 days of the date of payment
      and if Provider fails to do so, Provider will be deemed to have waived any appeals
      rights.

5.	   Provider agrees to accept Health Plan’s payment as payment in full for covered
      services.   Health Plan’s payment will be as listed in Attachment A. Appropriate
      services covered by this Agreement that are not listed specifically in Attachment A will
      be reimbursed at the Health Plan allowable for the service.           Payments will be
      considered payment in full for applicable charges. Provider agrees that no copay ;,lent
      will be charged at time of service.

6.	   Provider agrees to provide Members with the same quality and timeliness of care as
      other patients. Quality of care will be commensurate with the professional standards
      of the community.

7.	   Provider through the state of Oregon, is self-insured under provisions of ORS 30.260
      through 30.300 (as now or hereafter amended) for its tort liabilities. Pursuant to ORS
      30.260 through 30.300, Provider and its employees are insured against any claim or
      claims for damages arising by reason of personal injuries or death occasioned directly
      or indirectly in connection with the performance of, or failure to perform, any Provider
      service provided hereunder, the use of any property and facilities provided by Provider,
      and activities performed by Provider in connection with this Agreement.          A letter
      certifying Provider’s insurance shall be provided to Health Plan upon request.

                                            B-2
8.     The patiies hereto mutually agree to indemnify, defend, and hold each other (including
       their officers, agents, and employees) harmless against any and all claims, demands,
       damages, liabilities, and costs incurred by the other party, including reasonable
       attorneys’ fees, arising out of or in connection with, either directly or indirectly, the
       performance of any setice, or any other actor omission by or under the direction of
       the indemnifying patty, its officers, agents, or employees.

9.     Provider hereby agrees that in no event, including but not limited to non-payment by
       Health Plan, insolvency of Health Plan, or breach of this Letter of Agreement, shall
       Provider bill, charge, collect a deposit from, seek compensation, remuneration, or
       reimbursement from, or have any recourse against Member, or other persons acting
       on their behalf, other than Health Plan, for covered services provided pursuant to this
       Letter of Agreement.      ““~is is further dictated by the Federal Medicaid Act and
       applicable Oregon Statutes and Oregon Administrative Rules concerning the provision
       of Medical Services under prepaid capitated health plans.

       Provider further agrees that this provision shall survive termination of this Letter of
       Agreement regardless of the cause giving rise to termination and shall be construed
       to be for the benefit of Health Plan’s Member; and that this provision supersedes any
       oral or written contra~ agreement now existing or hereafter entered into between
       Provider and Member, or persons acting on their behalf. This provision applies to
       services provided during a time period for which Member premiums have been paid.

10.
   Provider agrees to maintain all required licenses, certificates, and/or registrations as
       issued by the appropriate State, Federal, and local governmental agencies to provide
       the health care services which Provider undertakes to provide to Members under this
       Letter of Agreement.

11.    Provider agrees, except in accordance with provisions, spirit and intent of this
       Agreement not to differentiate or discriminate in its provision of services to Members
       because of race, color, national origin, ancestry, religion, sex, marital status, sexual
       orientation, or age.

12.    Attachment B lists current service locations.   Provider will notify Health Plan of service
       location changes as they occur.

13.    Provider will make every reasonable effort to direct the Member to Member’s primary
       care physician for services not included in this contract. Members may be billed only
       for those services not covered by Medicaid.

14.    Provider and Health Plan may agree to contract for certain services not included in this
       Agreement on an as-needed basis. Provider and Health Plan will agree at time of
       service on rates and charges associated with such services. Services will include but
       are not limited to obstetrical case management and specialized programs sponsored
       by Provider.

15.    In the event of any dispute arising out of or relating to this Agreement, the parties shall
       attempt in good faith to mutually resolve the dispute. Any appeals on decisions
       related to treatment or services will be mediated between Health Plan and Provider.



                                             B-3

16.	   - This Letter of Agreement may be terminated at any time without cause by either party
         upon sixty (60) days advance written notice to the other party.

17.      The term of this Letter of Agreement shall commence on Janua~ 1, 1993 and shall
                                                     1993 and thereafter until December 31 of
         continue in effect through December 31,
         each following year unless terminated by either party pursuant to the terms stated
         herein.	 The fee schedule as listed in Attachment A may be revised concurrent with
         renewal.



AGREED AND ACCEPTED:

                                                      Multnomah CounWf 0re90n
Sisters of Providence
                                                      Department of Health
Health Plans in Oregon
                                                      “Provider”
Good Health Plan of Oregon HMO
‘Health Plan”

                                .-
                    .-               7
                                         ----
                               ~~ “4
             /“..        ;


 By:=-” ?’:”~~’  A   -             “‘~
   Ted von Glahn
    Chief Operating Officer




        ?3          -086307)                                       >:
       Employer I.D. Number
                                                      By:
                                                         BilllOdegaard,   Direct8r, Health Dept.




                                                       By-:”
                                                          Progra    Manager, Health Department



                                                       Date:




                                                       REVIEWED:

                                                       IJ+URENCE B. KRESSEL, County Counsel

                                                        -
                                                       0.,.

                                                B-4
                                           Addendum        A




This Addendum to the Letter of Agreement seines to establish operational protocol and procedures to
help ensure coordinated delive~ of the health services specified in the Letter of Agreement, which
Medicaid-s~nsored,   Managed Care Program enrollees may receive from both County health department
personnel and their Good Health Plan of Oregon (Plan) providers.




(1)	   Primary Care Physician (PCP) Coordination:       Plan PCPS are to be informed of Plan­
       reimbursad, optional health care services received by their members at County health clinics.

       �	      The respective County wifl b~l the Plan for each service encounter in a format that
               identifies the date, member mme, diagnostic code(s), and procedure code(s) enabling
               the Plan to generate a report for entry by the PCP in the member’s medical record.



(2)    Protocol to Support Compliance with Recommended Immunization Schedules               -
       The involved PCP and County clinic wUI adhere to the fallowing procedures:

       �	      During the initial offiie v&it, the PCP is expected to discuss the immunizations deliv~
               option and help the member determine where they wifl most readily compfy with
               immunization schedules,     at their PCP’S office or at a County clinic.

       �	      If a member selfdirects to the County for immunization services, she wifl be encouraged
               to remain with the County provider to completion of the immediate immunization
               schedule.

       �       The Plan will assist PCPS with a tracking and recall system.



(3)	   Protocol Related to Sexually Transmitted Diseases: Routine screening, treatment, and
       monitoring for recurrence of STDS will be providd   exclusively by the PCP in the course of
       providing the member’s primaty care.

       �	      Both the invofved County and the PCP will screen and treat sexually transmitted
               diseases when a member presents episodically.

               �	      The Plan expects the County to proceed with treatment and all immediate
                       foflowup to assure that this episodic treatment was effective.

               �	      Members will be directed to their PCPS for annual gynecological examinations,
                       which include routine STD screening, and ongoing monitoring of conditions
                       previously treated by the County.

       �       The point-of-sewice contact mayarise    directly from STO concerns or from the delivery
               of family pfanning services, which routinely involve a PAP test and, secondarily, may
               detect the presence of a STD.



Continued


                                                 B-5
Addendum    A - page 2




(4)	   Protocol Related to Other Communicable         Diseases: The County will provide necessqf
       diagnostic testing and counseling when a member contact presents the opportunity to screen
       for a communicable disease of public health concern (i.e., TB, HIV/AIDS, and viral hepatitis).
       The County will refer the member to the PCP for treatment and concurrently notify the member’s
       PCP of the referral, to facilitate PCP follow up, as soon as the member is informed of an
       HIV/AIDS diagnosis or TB diagnosis (services typically invdve skin test/chest x-ray/lNH).

       �       The PCP, in providing primary c-are, routinely will screen for communicable diseases

       �	      When the PCP makes a TB diagnosis, she/he may refer the member to the County for
               treatment if justified by the County’s capabii”~ to treat more effectively; otherwise,
               treatment will be provided routinely by the PCP or referred to a Plan specialist.

       �	      The County will be asked to furnish the Plan with informational material about its
               communicable disease prevention and treatment sewices, which may be used to inform
               PCPS more fully about this treatment option.



(5)	   Referral to Plan Pharmacies:     To ensure efficient dispensing, prescriptions for members should
       be called in or taken to a Plan pharmacy (see listing provided as Addendum B).

       �       The Plan will supply all County clinics with updated Plan Pharmacies listings as issued.

       �	      The rationale for this restriction is the likelihood that a non-Plan pharmacy will deny
               service to a Medical Card holder designated as an enrollee of the Good Health Plan.



(6)	   Access to Family Planning Sewices: Members may obtain OMAP-coverecffamify pfanning
       services from the County or any other licensed, enrolled OMAP provider. Counseling on
       methods of family planning is the only service covered by the Good Health Plan. However, the
       member’s PCP, as an individually-enrdled OMAP provider, can provide OMAP-covered family
       planning medical services and prescriptionson a fee-for-servicereimbursement basis.

       �	      When the County provides covered family planning services to a GHPO-Medicaid
               member, the County will bill OMAP for these sewices on a fee-for-service basis.
               Therefore, neither the Plan nor the member’s PCP will be notified of County-provided
               family planning services.

       �	      To ensure access to provider options for family planning services, member materials will
               promote the publicly-funded 1-800 -SAFEN= telephone information and referral service,
               which can direct the member to her County heaith department and community providers
               of all-options family planning. Plan Providers will be furnished SafeNet promotional
               materials for additional distribution to members.




                                                   B-6
            APPENDIX         C

CONTRACT BETWEEN HEALTH START AND RAMSEYCARE




                      c-1
                          PREPAID MEDICAL ASSISTANCE PROGRAM

                            PRIMARY CARE PROVIDER AGREEMENT



         This Agreement, made and entered                        into this ‘irst                day of ‘cc*

t    199<,     by and between           the       party         executing this Agreement                     on    t
Signature       and Declaration           Page attached               hereto       (“ProviderZ)            and NW

HEALTH       NETWORK, INC. (“Health Plan”)



                                SECTION       1    PARTIES AND PURPOSE


         Section 1.1            Parties.              The        Health         Plan      is     a        Minneso

nonprofit       corporation        licensed         and organized               as a health maintenan

organization         to arrange to provide health care services to residen
of    Minnesota       on a prepaid basis.                        The Health Plan has been du
approved       and    designated by the State of Minnesota                                 as        a    vendor

health       care     services         for    the     Prepaid           Medical Assistance                  Progr

(“PMAP”) for eligible Medical Assistance                                (“MA”) recipients                whc] enro

in the Health Plan.               Provider          is a community               health    care clinic a

is duly licensed by the State of Minnesota.
         Section 1.2            PurDose.          The Health            Plan    wishes     to    contract          wi

Provider to provide Primary Health                               Care     Services       under           PMAP to
recipients enrolled in the Health Plan.                                 Provider agrees to work wi
the      Health Plan in the                  delivery           of health care services to M
eligible persons participating in PMAP who are enrolled in the Heal
Plan.         Provider is willing                 to provide such persons with                               Prima

Health       Care    Services     as    provided          under       federal and Minnesota law a

regulations governing PMAP and the                               Health        Plan,     and    to       receive

payment in full the payment specified                             h     this Agreement.


                                                          c-2
                           SECTION II:         DEFINITIONS


  .     The following definitions shall apply to this Agreement and t
all exhibits and addenda attached hereto:



        Section   2.1    ~Care Coordination-.              The initial and periodi
assessment of each Enrollee~s health and social situation and th
development,       implementation and monitoring               of care plans for ea
Enrollee.
        Section 2.2      “Care Coordinator”.           The nurse, social worker

other appropriate professional person who is designated by Provider
selected Primary Care Site medical staff to perform Care Coordinati
for assigned Enrollees.

        Section 2.3      ‘Clinic Professional-.                All medical doctors a
other duly qualified licensed or registered health care professiona
who are members, partners, shareholders, owners, agents, or employe
of Provider or are otherwise affiliated with Provider.

        Section 2.4      “Covered Services”.               Those health care produc
and services included in the PMAP benefit package and described

the Health Plan’s Description of Benefits.

        Section 2.5      “Emeraencv Care-.             The provision          of   medically

necessary Covered Services       which     are      required     to   treat   an   immediat

medical emergency.
        Section 2.6      ‘Enrollee”.           An    MA-eligible        individual      who

enrollment in the Health       Plan under           PMAP    has been entered        into t

State    Client Information File.
        Section 2.7      ‘Enrolle
                         ~.                                     A contract, certifica
or other evidence of coverage issued to an                      Enrollee that describ


                                         c-3
the Covered Services available                          to     the    Enrollee        under           PMAP and              th

Health     PlanJs     Description         of   Benefits.
                                                                                                               #            Th
         Section     2.8        “Health        P1 a n    Qua li. t v       A Ssu rance       Protocol_             �




standards      and     operating       procedures              adopted       from     time    to        thue           by   th

Health      Plan      as     necessary         to    maintain              the     Health     Plan’s           quality

assurance      program        i.n accordance            with     Minnesota          law     and       acceptable

the   United       States     Departxtent       of    Health         and Human Services                  (DHHS).

         Section     2.9        am     Care     Protocol”.                 The utilization              and quali

assurance standards and procedures identified and developed from ti
to time by the Health Plan to be used in the care of Enrollees.                                                             T

MA Care Protocol includes specific penalties for non-compliance wi
established          standards         and      provides             an      appeals        process            for          a

participating           providers         affected             by     the        Protocol.            The      MA           Ca

Protocol is subject to the Quality Assurance Plan and is contained

the MA Care Manual maintained by the Health Plan and is incorporat
herein by reference.

         Section 2.10           ~.
                                “
                                               A physician appointed


the Health Plan to oversee the quality of Covered Services deliver

to Enrollees and to review cases of excessive utilization of Cover

Services.           The MA Medical Director shall have the authority to ma
determinations              in accordance       with the MA Care Protocol.


         Section      2.11       ~

                                 W         a                           Prov*der&.                 A    “provider


{Uovered Services              under      PMAP       who        is     a     Primary        care        Providerr


Referral       Provider        or other         provider             under       contract     with        the Heal

Plan to provide              such health services.


          Section     2.12       ‘Medical           Emera encv         Servicesm.            Covered           Servic

 provided      as Emergency           Care.         For purposes             of this contract,                 ‘Medic


                                                         c-4
Emergency~ shall mean a condition that if not treated immediately

could     cause a person             serious physical or mental disability                      the


continuation of severe pain or death. Labor and delivery is a medical

emergency if it meets this definition.

        Section 2.13          “Out-of-Plan Care”.              Health care provided to an

Enrollee by providers who are not under contract with the Health Plan

to provide health services under PMAP.

        Section 2.14          ~                      Screeni                  aive        roclram”.

The State program mandated by Minnesota Statutes, Section 256B=69

(1990), section 256B.0915 (Supp. 1991), and Minnesota Rules, parts

9505.2390 to 9505.2500.


        Section 2.15          ~Pre~aid Medical Assistance PrOCfram(PMAP)#* The

program authorized under Minnesota Statutes, Section 256B.091 (1990),

Section          256B.0915   (1992) and Minnesota Rules, parts 9500.1450 to

9500.1464.

        Section 2.16          ‘Primarv         CareU.       A     type   of    medical         care
emphasizing          first    contact         care    and   the    assumption        of    ongoing

responsibility         for   the    patient    in both health maintenance            and therapy

for illness or injury.                It is comprehensive         in scope and involves the


overall      coordination          of care of the patient~s health problems whether

biological, behavioral or social.


        Section 2.17          “Primarv         Care     Providerm.       A      piimary        care

physician or other provider of health care who has entered into a

contract with and who is authorized by the Health Plan to provide

Primary Care Covered Services to Enrollees and to authorize Covered

Services to be performed by Referral Providers.

        Section 2.18          “Primarv Care Site”.              A medical clinic location



                                                 c-5

whose medical        staff     agrees      to   serve     as    the    primary       control     point   for

an.Enrollee’s medical care needs.
        Section     2.19       “Provider         Manual#.               The      official        Minnesota


Department          of     Human      Services’           publication,           entitled         ~Medical


Assistance        and      General Assistance Medical                    Care Provider Manual,”

which      is    issued       to     providers       by    the        State     to     clarify     policy,


procedures, or definitions of Covered Services under PMAP.

          Section 2.20         ~eferral         Provider”.            A provider of health care

who delivers Covered Services to Enrollees as requested by a duly
authorized Primary Care Provider and who has entered into a Referral
Provider        contract       with     the     Health         Plan    to deliver such              Covered
Services.
          Section   2.21       ~                               @.      Covered       Services     provided

to Enrollees by Referral                   Providers       as       requested     by    a Primary Care
Provider.
          Section 2.22         “re
                               ~.
                         Covered medical services which
are medically necessary in order to prevent a serious deterioration

of the health of an Enrollee who is temporarily outside the service


area,      Ramsey County       of    the   State     of   Minnesota,          when the     need    for   care

arises.


                             SECTION 111$          PROVISION         OF SERVICES           .
          Section    3.1        Ob   lIU    I n to Provide Covered Services.
                                       ‘ at”o                                                      Provider

is a       Primary Care Provider and shall provide, or arrange for the
provision by MA Participating Providers designated by the Health Plan
pursuant to the MA Care Protocol, to Enrollees who choose to obtain
services        from       Provider, all           medically          necessary and             appropriate



                                                    C-6
Covered        Services “ including                   those services in Appendix                   I to this
Agreement, attached and incorporated herein.                                    Provider shall, to the
maximum extent possible, provide Care Coordination for each Enrollee
who chooses to obtain services from Provider, including all Covered
Services rendered to such Enrollee by providers not affiliated with
Provider.            The Health Plan may make deletions from or additions to’
the Covered Services as nay be required from time to time by federal
or state           law subject to approval by the Minnesota                                   Department of
Health.            The     Health Plan             shall give written notice                   of any such
deletions or additions to Provider within seven (7) days of being so
notified by appropriate persons responsible for the PMAP.
        Section 3.2                    C.L.I.A. Requirements.                  All    laboratory testing

sites providing services for PMAP pursuant to arrangements under this

Agreement            shall        have       either       a     Clinical        Laboratory         Improvement

Amendments             (CLIA)          certificate            of    waiver      or    a      certificate   of

registration              along         with      a     CLIA       identification          number.      Those

laboratories with certificates of waiver will provide only the eight

types         of      tests        permitted            under       the     terms     of      their   waiver.

Laboratories             with certificates of registration may perform a full

range of laboratory tests.

        Section 3.2                    s~                 ervic .          Provider is responsible for
and agrees to provide Covered Services to Enrollees i“n accordance
with    the        professional             standards      of      the    community    and     h    accordance
with    the Health                Plan Quality Assurance Protocol and the MA Care

Protocol.              All Covered Services provided in accordance with this

Agreement            shall        be    at     least equal               in quality,       completeness and

promptness            to services provided by Provider to other persons not



                                                          c-7

covered by this Agreement.


  .    Section 3.4        Jnformation Reaardina Services*           Provider shall


furnish to the Health Plan without charge reports and data concerning

Covered Services provided by Provider to Enrollees in such form and

at such times as may be reasonably required by the Health Plan, the

State of Minnesota, or the United States Department of Health and

Human Services (@DHHS~).

       Section 3.5        Control    of   Operations.         The    operation     and


maintenance    of the offices, facilities and equipment of Provider

shall be solely and exclusively under the control and supervision of


Provider.     The Health Plan shall have no right, authority or control

over   the   selection of      staff or    the   supervision of personnel           of


Provider.       Each      Clinic    Professional     sha11    maintain     the     same


doctor/patient relationship as would arise in the absence of this

Agreement, and no provision of this Agreement shall have the effect

of infringing upon a Clinic Professional/s professional relationship

with each Enrollee.


       Section 3.6        Enrollee Identification.           Based on information


made available to the Health Plan by the State of Minnesota, the

Health Plan shall maintain such lists as are needed for the purpose

of enabling Provider to establish procedures for identification of

eligible      Enrollees.       The     Health    Plan    shall      also   issue     an

identification       card to each Enrollee,          promptly after his or h=

enrollment, bearing the name of the Enrollee, Enrollee numb=,                       and

effective     date   of    coverage.      Provider    agrees to      use   reasonable

efforts to verify the current status of an Enrolleets eligibility for

Covered Services.



                                          C-8

     Section 3.7                primarv Care Sites.                   At the time of enrollment,


Enrollees        shall        be    notified       of     the     names    of     MA    Participating


Providers who have been designated by the Health Plan to serve as

Primary Care Sites. Enrollees shall be notified that they are to seek

Covered Services              exclusively        from those       Primary       Care   Sites    or from


Referral    Providers           to whom         Enrollees       are    referred    in writing       by a


Primary    Care Provider.             Provider agrees to make the Primary Care Site


as designated       by Provider             available t.o each Enrollee.                Provider will


furnish     the     Health           Plan       with     a    current      list    of     all      Clinic


Professionals           who     will       be   providing        Covered     Services      and      shall


provide    the Health Plan with an amended                       list within ten         (10) working


days of any changes.


     Section       3.8             site Designation Enrollees.               Enrollees      will     also

be notified that the Health Plan retains the right to designate a
specific Primary Care Site for each Enrollee and will do so when it
is judged appropriate by the Health Plan.                              If an Enrollee is informed
that he or she has been assigned to receive Covered Services from a
specific Primary Care Site, then all subsequent Covered Services for
that Enrollee must be provided or arranged for by such Site. Only
Covered     Services          authorized by Enrollees                    designated Primary Care
Site will be covered by the Health Plan, except for Medical Emergency
Services and ‘out-of-plan~ Urgent Care servicesf as de-finedherein
and in the Enrollee Certificate.
     Section 3.9                   Other    Providers.           Except     in cases      of Medical
Emergency or as provided otherwise in PMAP or as expressly specified
by the Health Plan in writing from time to time, if Provider is
unable     for    any    reason to render a necessary Covered Service to an



                                                       c-9

Enrollee,      Provider    shall    arrange     to     have   such   Covered    Services

rendered      to   Enrollee    by     another     HA     Participating   Provider     if

possible.      The Health Plan will make available to Provider a list of

all   XA     Participating Providers,         as modified       from time to       time=

Providers shall obtain prior authorization from the Health Plan for

any such arrangement to have Covered Services rendered by a provider


that is not a Primary Care Provider under contract with the Health

Plan to provide services under PMAP.

                       SECTION IV       PAYMENT FOR SERVICES

      Section 4.1          Pavment Procedure.            The Health Plan shall pay

Provider for the provision of Covered Services to Enrollees and the

other responsibilities assumed by Provider under this Agreement, as

provided      in   Exhibit A    attached        hereto    and   incorporated herein.

Provider shall send all invoices for Covered Services provided to

Enrollees to the Health Plan’s Claim Department as specified by the

Health Plan.       Information required to be submitted in such invoices

by    Provider     includes,    but     is    not      necessarily    limited    to   the


following:

       a)     primary and secondary diagnosis codes using ICD-9 coding;

      b)      procedure codes including modifiers;

       c)     unit of service and date of service;

       d)	    place   of    service     (e.g.     inpatient     hospital;      outpatient

              hospital, outpatient clinic, physician office, etc.); and,

       e)     MA identification number.

Provider must file all such invoices within sixty (60) days following

the close of the calendar quarter in which the services invoiced were

provided.



                                          c-lo

        Section 4.2         EXcJusive    Pavment.           Provider       agrees that         the


pa’yment for Covered Services specified in this Section constitutes

the      entire    payment       for    the     Covered          Services     provided         and


responsibilities       assumed    by Provider         under    this Agreement,         and that


Provider    shall not charge        Enrollees       for additional          amounts    for said


Covered    Services.     If payment for any Covered Service is denied due

to    non-compliance     with     the MA      Care     Protocol       or    the   Health       Plan


Quality    Assurance    Protocol,       Provider      agrees      not to bill the Health


Plan or the Enrollee for such Covered Services.

        Provider shall accept as payment in full for Covered Services

rendered     to    Enrollees     such   amounts       as   are      paid   pursuant     to     this


Agreement.        PROVIDER     AGREES   NOT TO BILL,          CHARGE,      COLLECT    A DEPOSIT


FROM ,    SEEK    REMUNERATION      FROM,      OR   HAVE      ANY     RECOURSE       AGAINST     AN


ENROLLEE     OR   PERSONS      ACTING   ON    THEIR    BEHALF       FOR    SERVICES     PROVIDED


UNDER    THIS    AGREEMENT.      THIS PROVISION        APPLIES       TO BUT IS NOT LIMITED


TO THE FOLLOWING EVENTS: (1) NONPAYMENT BY THE HEALTH MAINTENANCE

ORGANIZATION OR (2) BREACH OF THIS AGREEMENT.                          THIS PROVISION DOES

NOT PROHIBIT THE PROVIDER FROM COLLECTING COPAYMENTS OR FEES FOR

UNCOVERED SERVICES.



        THIS PROVISION SURVIVES THE TERMINATION OF THIS AGREEMENT                               FOR

AUTHORIZED        SERVICES      PROVIDED      BEFORE       THIS     AGREEMENT “ TERMINATES,

REGARDLESS OF THE REASON FOR TERMINATION.                     THIS PROVISION IS FOR THE

BENEFIT OF THE HEALTH MAINTENANCE ENROLLEES. THIS PROVISION DOES NOT

APPLY TO SERVICES PROVIDED AFTER THIS AGREEMENT TERMINATES.





                                              C-11

          THIS PROVISION              SUPERSEDES          ANY CONTRARY OIU.L OR WRITTEN AGREEMENT


EXISTING        NOW OR ENTERED                  INTO IN THE F’UTURE BETWEEN                                 THE PROVIDER AND


THE     ENROLLEE          OR PERSONS            ACTING        ON THEIR BEHALF                       REGARDING              LIABILITY


FOR PAYMENT           FOR SERVICES PROVIDED UNDER THIS AGREEMENT.




              SECTION v:              -CASE MANAGEMENT AND UTILIZATION PROTOCOLS
           Provider         agrees to             cooperate            and comply with                          all        protocols

established              from    time     to    time      by the          Health           Plan     with       respect            to    the

provision           by     Provider        of      Covered         services                to     Enrollees               under        this

Agreement,               including,            without         limitation,                      protocols             related             to

hospital           admissions,           length          of   stays,             referrals,              and         medical           Case

management.              Provider         understands              that          failure           to       obtain          necessary

prior       authorization               from      the     Health          Plan        may       result         in     a     financial

penalty       to     Provider.

                            SECTION VI            QUALITY REVIEW AND EVALUATION
           Section 6.1                  Performance of Duties.                         Provider agrees to comply

with any and all quality evaluation, quality assurance, and quality

control            responsibilities,                      including                   the         Clinic              Professional

credentialing and recredentialing process, which may be established


by the Health Plan from time to time or                                          to    which the Health Plan may
be subject under                    local, state or federal law with respect to PMAP.
Provider agrees to abide by the decisions of the MA Medical Director
and the Health Plan during the term of this Agreement.
           All Clinic Professionals retain their right to make independent

decisions affecting individual patient care and to advocate the needs

of patients.                    Clinic Professionals’ primary consideration shall be

the quality of services rendered to Enrollee.



                                                              C-12

         Section 6.2       Evaluatiorl.              Provider    shall       participate          as


reasonably requested in the Health Plan’s ongoing evaluation of the
delivery of Covered Services and shall provide such information at no

charge     as   may be   reasonably     requested       to   enable    the   Health     Plan to

impleInent      the Health Plan Quality Assurance Protocol and MA Care
Protocol.
         Section 6.3       Audit. Inspection.            Provider shall       make    available

during     normal business      hours       all records pertaining           to MA Enrollees

that are relevant to this Agreement                   to authorized     representatives           of

the State       and DHHS and at such times, places, and in such manner as

such a-uthorizedrepresentatives may reasonably request for purpose of
audit, inspection, and examination of the quality, appropriateness~
and timeliness of services performed by Provider pursuant to this
Agreement.
                     SECTION VII      CONSUMER COMPLAINT PROCEDURES

         Section 7.1       ~do~tion of Procedure.               Provider shall adopt and
implement the Health Plants consumer complaint system and procedures
with respect to PMAP as modified from time to time.                          Such procedures
shall comply with all          applicable      statutes,     rules    and regulations.

         Section 7.2       J?ole of the Health Plan.                 The Health Plan shall

make available written procedures for the handling and resolving of

complaints, inquiries and opinions with respect to PMAP in a fair and

reasonable manner.

         Section 7.3        Designation        of     Representative.         Provider       shall

designate        a    person    with        appropriate      authority        who     shall       be


responsible for the handling and resolving of all such complaints,

inquiries and opinions.



                                              C-13
       Section 7.4              Coo~eratio~.            Provider shall inform the Health

plan of all written complaints, inquiries and opinions filed with


Provider by Enrollees and shall cooperate and assist the Health Plan

in resolving such matters.                     Pursuant to the requirements of Minnesota

Statutes         Chapter       256,     Provider       shall     inform the           State Ombudsman

within three (3) working days of its receipt of a formal complaint,


provide the Health Plan with copies of correspondence with the State

Ombudsman, and provide the Enrollee complaining with the name and

number of the State Ombudsman.


       Section         7.5      Arbitration.            My     complaint         which    the Enrollee,

Provider     or the Health Plan determines has not been satisfactorily

resolved shall be settled by arbitration in accordance with Minnesota
Statutes,        Chapter       572, provided          that the arbitration               is not required

when   an    Enrollee         elects     to litigate           his    or her       complaint     prior     to

submission        to arbitration           or a       medical        malpractice       damage    claim      is

involved.

                               SECTION VIII           BOOKS AND RECORDS



       Section         8.1      Access         by    Plan.       The        Health    Plan    shall     have


access      to    Provider’s           books,       Enrollee     patient         records,     records       of

accounts         and    any    other     relevant       documents           at   reasonable     hours      and


upon   reasonable             notice     for    examination           and    inspection         as   may    be


necessary        for the administration               of this Agreement              or to meet federal


or state requirements                 under PMAP.


       Section         8.2       Release of Information.                    The Health Plan shall be


authorized        publicly       to release aggregate                cost, utilization           and other


information            concerning PMAP.             Specific         information that identifies




                                                     C-14

Provider      shall          not     be        released       without      Provider’s         written


authorization except as a part of reports required by the State of

Minnesota     or    I)HHS.          The    Health        Plan    is    authorized       to    release


information        in    its       possession       or    obtained under          this   Agreement


pertaining     to       providers         or    Enrollees,       necessary       to   comply with


federal and state statutes applicable to the Health Plan.

     Section 8.3               Data Privacy.         Provider agrees to comply with all

the requirements of the Minnesota Government Data Practices Act in

providing services under this Agreement.                             In accordance with Minn.

Stat.,      Section          13.46,        subd .        10     (1990) ,      Provider        accepts


responsibility for providing adequate supervision and training to its

agents and employees to ensure compliance with the Act.                                  No private

or confidential data collected, maintained, or used in the course of

performance        of    this       Agreement       shall       be    disseminated       except     as

authorized by statute, either during the period of this contract or

thereafter.         Provider agrees to               indemnify and save and hold the

Health Plan,        its agents            and employees, harmless               from all claims

arising out of, resulting from, or in any manner attributable to any

violation by Provider of any provision of the Minnesota Government

Data Practices Act, including legal fees and disbursements paid or

incurred to enforce the provisions                   of this Agreement.


     Section 8.4               &fedi.calRecords.              Provider   shall provide        for the


development        of    a   medical       record-keeping            system   through    which     all


pertinent     information           relating     to rnedi,calservices           and management      of


Enrollees     provided         by Provider        is accumulated         and readily         available


to appropriate          health professionals.


     Section 8.5               Encounter          Data.              Provider     must       maintain



                                                   C-15

sufficient            patient           encounter           data       to     identify             the           PhYs~Cian        who


delivers             services               to        Enrollees,              as          required                by       section


1902 (In)(2)(A) (xi)                  Of        the      Social            Security              Act         (42        U.s.c.           s


1396b(m) (2)(A) (xi)).


          Section 8.6                       Other       Reau i.red Records%                        Provider             agrees       to


furnish         information                 from      its        records          to     the       HEALTH ~JJ~               to      be

provided to the STATE or its agents which the STATE may reasonably
require to administer PMAP including, but not necessarily limited                                                                  to,

the     information              in   the    Provider            Manual,     as        defined         in    Section       2.20      of

this      Agreement.

          Section          8.7              Becord
                                            ~                                                      rer3aratio                      All

records        collected,               used,         dissexainated           and         stored            by    the     Provider

pertaining            to     MA Enrollees                shall        be    maintained             in        accordance           with

Minn.        Stat.          Ch.       13        (1990)      and        Minn.           Stat.       ~        144.335         (1990),

safeguarded in accordance with the requirements of 42 CFR 431 Subpart
F and retained in accordance with the record retention requirements
of 45 CFR Part 74.                           Provider agrees                 to     maintain such records and
prepare such reports and statistical data as may be deemed necessary
by the Health Plan.                          Provider agrees to furnish or make available
without cost all records to authorized representatives of the Health
Plan, the State and DHHS during normal business hours and in such

form as shall redesignated.                                      Provider agrees to maintain and make

available to the HEALTH PLAH, the STATE, and DHHS all records related

to Enrollees and required under this Agreement for a period of six

 (6) years after the termination date of this Agreement.                                                                Records to

be      retained include but are not limited to medical, claims, case

management, and prior-authorization records.



                                                                 C-16

     Upon termination of the contract, or at such time as individual

MA .Enrollees terminate enrollment, Provider shall~ ~Pon request bY

the HEALTH PLAN and at Provider’s expense provide to the HEALTH PLAN

copies of all records pertaining to medical services provided MA

Enrollee(s).

                       SECTION IX      ADVERTISING AND PROMOTION

     Section 9.1           Use    of Names.            Each    party to this Agreement


reserves the right to, and control of the use of, its names and all

symbols, trademarks and service marks presently existing or hereafter

established       with     respect      to     it,     except       that     Provider       hereby


authorizes the Health Plan to use the names, addresses, and phone

numbers,     for purposes of promotion and advertising by the Health

Plan.     Such authorization is limited to listing the name of Provider,

including clinic or institution names, individual physician names,

addresses    and phone numbers,             in an ethical       and reasonable          manner for


purposes    of promotion      and advertising.


        Section 9.2        Prohibition         Acrai.nstUnauthorized             Use.    Except as


authorized       above, each party agrees             that    it will not use the names,


symbols ,    trademarks,         or    service        marks    of    any     other       party     in


advertising       or    promotion      or     otherwise       without      the    prior    written


consent     of    such    other       party     and    will     cease      any     and     all   use


immediately      upon termi.nati.on.


        Section 9.3         RamseyCare          The     Health      Plan    shall        have    sole


responsibility         for all advertising        and promotion         and for solicitation


of Enrollees      under the MA RamseyCare             program.





                                               C-17

                             SECTION X        DURATION AND TERMINATION

      Section 10.1                 XEX3!* The term of this Agreement                      shall commence


on the date first above written and continue through June 30, 1994,

unless otherwise terminated as provided under this Agreement.

      Section 10.2                 ~erminatio~

      a.        This Agreement may be terminated                      by Provider         or Plan at any

time upon       at least one hundred                twenty-five          (125) days prior written

notice     to        the    other     party     provided          that   the    effective         date     of

termination          under this Section             10.2.a. shall not occur prior to June

30, 1994.

      b:        If     Provider       violates        the     Health     Plan     Quality        Assurance


Protocol        or    the     MA    Care    Protocol,        as    amended      from      time   to     time,


including       the        failure of the any Clinic Professional                         to satisfy the


credentialing              or recredentialing requirements, the Health Plan may


terminate this Agreement immediately upon notice to Provider.                                         In any


event, any Clinic Professional who does not satisfy the credentialing

or recredentialing process or laboratory testing site that does not

meet federal and state requirements will not be permitted to provide

Covered Services to Enrollees.

      c.        This       Agreement       further        may be terminated          at the option of

any   non-breaching            party,        upon     a    material      breach      of    any   party     in

substantial           performance       of any        term    or covenant         in this Agreement,

after thirty           (30) days prior written                notice of such breach               is given

to the breaching              party;       provided       however    that such termination               will

not   limit or otherwise affect any rights or                                remedies       of   any     non-

breaching        party       otherwise        available       at    law or      in     equity     for    such

breach.


                                                     c-18

        d.      In the event that the Health Plan’s arrangement with the

State of Minnesota regarding                          PMAP terminates,                this Agr@ement                 maY be


terminated        by the Health                 Plan upon       at least thirty                  (30) days prior


written        notice to Provider.


        Section 10.3               Termination            of       Obligations.                  The      rights           and


obligations           of   each       party       to     this      Agreement          shall       continue            until


termination           of   this       Agreement.              Upon      termination,              the     rights           and


obligations           of     each      party          shall     cease;             provided,          however,          that


termination           shall        not         relieve       the      Health          Plan       or     provider            of


obligations           with    respect            to    Covered          Services         furnished              prior       to

                                                                            *

termination.


        Section 10.4               CooDeratioq.               Upon notice            of termination              of this

Agreement, the Health Plan and Provider shall cooperate with each
other in giving notice of termination to                                     all     Enrollees          and Provider

shall     cooperate          with      the       Health       Plan      in     transferring              to     other       ~

Primary        Care   Providers          all     Enrollees         then      under     Provider’s             Care.

                                      SECTION XI             MISCELLANEOUS

        Section       11.1         Independent               Parties.                Each        party          to      this

Agreement        is    and    shall       continue        to    be      an   independent              entity,        and    no

party     is    an agent      or    representative              of    any other.

        Section       11.2         Insurance           and    Licensing.             Provider          shall      provide

<and maintain          policies        of      malpractice           insurance         as    shall      “be ‘necessary

to   insure Provider and its employees or agents against any claim or
claims for damages arising by reason of personal injuries or death
incurred directly or indirectly in connection with the performance of

any service provided by Provider, and shall provide the Health Plan

with evidence that such coverage is in effect. Unless such policies



                                                          C-19

are      ‘occurrence policies,U Provider will maintain such coverage for
at L least        thirty-six        (36) months            following         te~ination           of         this
Agreement.          Provider and each Clinical Professional providing Covered
Services      hereunder         shall maintain             all     federal, state, and                   local

licenses,         permits,     and association        memberships           required to operate                 a

medical      or--dental. clinic :in the tState.-of--Mhnesota8                           as applicable,

and shall comply with all applicable state and federal statutes and
regulations.           Provider shall notify                  the        Health Plan as            soon        as

reasonably possible of any actions brought against Provider or any
Clinic      Professionals           by    any    federal     or     state        agency      restricting,

suspending,         or terminating          Provider’s       authority           to operate       a clinic

or the Clinic Professional/s                    license to practice.

          Section    11.3       J401d Harmless       bv Provider.                Provider       shall        hold


the      Health     Plan harmless         from any        claims,        demands,     and expenses             of


any kind by reason of any act or omission                           caused or alleged               to have


been      caused     by Provider,         or any     agent        or employee         thereof,          or    any


person      or group to whom referral is made by Provider.


          Section 11.4          Hold Harmless bv the Health Plan.                              The Health

Plan       shall hold        Provider harmless             from any claims,                  demands,         and

expenses      of     any     kind    by   reason     of     any    act     “or    omission       caused        or

alleged to have been caused by the Health Plan, or any agent or

employee       thereof,        in the discharge             of     its responsibil~ities to an

Enrollee under this Agreement.

          Section 11.5          Confidential Information.                        Provider shall keep

all      quality      assurance and utilization                    review information of                      the

Health       Plan     (including but not             limited to all statistical                           data,

reports       and standards), and all                 financial information relating to


                                                   C-20

this    Agreement       confidential,     and    shall use     its best         efforts to


prevent and protect such information from unauthorized disclosure by
its agents or employees.           Provider shall not use or           allow     its   agents

or     employees    to    use    any    such     information     to    the      competitive
disadvantage or detriment of the Health Plan.                  Provider shall comply

with all applicable confidentiality laws and regulations.

        Section 11.6       Amendment and InterDretatioq.              This Agreement may


be amended by mutual written agreement of the parties hereto at any

time.     In addition, the Health Plan may inform Provider in writing of

reasonable     interpretations, clarifications and guidelines which do

not materially alter the terms of this Agreement.

        Section 11.7       No Assignment.        This Agreement and the rights and

obligations        of    the    parties   hereto     shall     not     be      assigned     or


transferred without the written consent of all parties hereto, except

that    the   Health     plan    may   assign any or       all    of    its rights and

responsibilities to any corporation that is a subsidiary or affiliate

of the Health Plan as allowed by federal or state law.

        Section 11.8       Severability.         The provisions of this Agreement

are intended to be severable.              In the event any provision of this

Agreement     shall be held invalid or unenforceable by any court of

competent     jurisdiction, such holding shall not validate or render

unenforceable any other provision hereof.

        Section 11.9       No Waiver      The failure of either party to insist

upon the strict observation or performance of any provision of this

Agreement     or to exercise any right or remedy shall not impair or

~’aiveany such right or remedy.

        Section 11.10      P~n                 Aqainst   Discrimination.               In   the



                                           C-21

performance of obligations under this contract, Provider
 agrees                               to

comply with provisions of:            the Constitution of the United
States and

the State of Minnesota; the Civil Rights Acts of 1964;
 Executive

Order 11246, Equal Employment Opportunity, dated September 24, 1965,

42    CFR   434.25; Minn.        Stat.      363.073    (1990); and any other            laws,


regulations, or orders which prohibit discrimination on grounds of

race, sex, color, age, religion, health status, disability                          national

origin or public assistance              status.

        Section 11.11       Comnliance       with     Environmental       Laws.      In    the


performance of obligations under this contract, Provider shall comply

with all applicable standards, orders or requirements issued under

section 306 of the Clean Air Act, 42 U.S.C. 1857 (h), Section 5.08 of

the    Clean Water Act,          33 U.S.C.        1368, Executive Order 11738, and

Environmental Protection Agency regulations (40 C.F.R. Part 15) which

prohibit     the use of
 facilities included on the EPA List of Violating


Facilities.


        Section 11.12
 Conmliance            with     Enerm     Policv and Conservation


Laws.         In   the     performance      of    obligations     under    this    contract,

Provider     agrees   to    comply   with    Public    Law 94-165    and   the    provisions

of the State Energy Conservation Plan.

        Section 11.13       ~.                                                      Provider

shall comply with state and federal law in their perfofiance of its

obligations under this contract, including but not limited to Minn.

Stat. , section 256B.69, Minn. Rules, parts 9500.1450 to 9500.1464,

Title XIX of the Social Security Act (42 U.S.C. s 1396 et. sea.), and

the     applicable provisions of             42     C.F.R. section 431.200 et.            sea.

Minn.      Rules, parts 9500.1450 to 9500.1464 are attached as Appendix



                                             c-22

III and incorporated herein.                   If any terms of this agreement                                   are

determined to be inconsistent with                     rule        or       law,    the    applicable       rule

or law provision shall govern.
       Section     11.14    Affirmative        Action.              Provider             certifies       that    it


has    received     a certificate         of   compliance               from        the    Co)~ission@r          of


Human Rights pursuant to Minn. Stat., section 363.073 (1990).

       Section     11.15    Voter Registration.                     Provider certifies that it
will   comply with Minnesota Statutes, section                              201.162        (Iggo)    .

       Section     11.16    Lobbvinu Disclosure.                    Provider certifies that, to

the best
 of its knowledge,             understanding,              and belief~ that:


        (i)   No   Federal      appropriated           funds        have been paid or will be

              paid in what         the Provider            believes                to be a violation             of


              section      1352,    title      31,      U.S.        Code,           by    or    on   behalf      of


              Provider     to     any    person      for      influencing                 or   att@mPtin9        to


              influence      an officer or employee                     of an agency, a Member of


              Congress,      an     officer       or       employee                of     Congress,       or     an


              employee of a Member of Congress in connection with the

              awarding of any Federal contract, the making of any Federal


              grant, the making of any Federal loan, the entering into of

              any cooperative agreement, and the extension, continuation~

              renewal,       amendment,           or     modification                     of    any      Federal

              contract, grant, loan, or cooperative agreement”.

        (2)	 If any funds other than Federal appropriated funds have

              been paid or will be paid to any person for influencing or

              attempting to         influence           an     officer or                 employee of           any

              agency, a Member of Congress, an officer or employee of

              Congress,       or    an    employee            of        a    Member        of       Congress      in



                                               C-23

                  connection            with       any       Federal      contract,     grant,    loan,    or


                  cooperative            agreement,            provider    shall   complete      and submit


                  Standard Form-LLL, “Disclosure                        Form to Report Lobbying~m in


                  accordance            with its instructions.


        (3)       Provider          will           require        that      the      language      of     this


                  certification be included in the award documents for all

                  subawards at all tiers (including subcontracts, subgrantsl

                  and        contracts           under          grants,      loans,     and      cooperative


                  agreements) and will require that all subrecipients certify

                  and disclose accordingly.



        This certification is a material representation of facts upon

which    reliance            was placed when this transaction                        was made or entered


into.      Submission            of this certification                  is a prerequisite         for making


or entering         this transaction                 imposed by section            1352, title 31, V.S.


Code.      Any person who fails to file the required                                  certification     shall


be subject         to a civil penalty                    of not less than $10,000 and not more


than    $100,000         for     each     such     failure.


        Section         11.17       Mediation.                 If either     party     requests    that    the


Commissioner            of     Health      order      that       a dispute    pertaining      to the terms


of renewal         or maintenance                of this Agreement           be submitted to mediation


in accordance            with Minnesota               law, then the Health             Plan “and Provider


agree that         the party requesting                        the mediation      will bear the cost of

the mediation.

        Section 11.18               Entire Aqreement.                  This Agreement, including the

exhibits and any addenda attached hereto, and any separate agreement

made a part hereof, constitute the entire understanding between the



                                                             c-2d

parties        hereto    concerning      the   subject        matter    hereof.      This    Agreement

supersedes        all   prior    agreements      and any amendments thereto                 concerning

such      subject       matter    with    respect        to    all     obligations          and   rights

hereunder arising as of the effective date of this Agreement.



          IN    WITNESS     WHEREOF,       the    parties            hereto   have     caused       this

Agreement        to be executed on the day and year first written above.



                           See Sianature and Declaration Paue





                                                 C-25

                                   Exhibit A


.
                     Fee for Service pavme nt forServices


    I.    General Terms for Payment

    1.	   MA Provider shall submit directly to NWNL Health Network,
          on forms approved by the Plan, all statements for Covered
          Sendces rendered by MA Provider to Enrollees, and shall
          contain complete statistical and descriptive medical and
          patient data.

    2.	   For all Covered Services eligible for payment, NWNL Health
          Network shall pay GAMC Provider an amount equal to the
          lesser of

             ~ne hundred fifteen Dercen~ (l 150/0~  of the Maximum
          ;ee for Health Services, as set forth in the NWNL Health
          Network RamseyCare MA Fee Schedule, or

          b. GAMC Provider billed charges.

    3.	   The NWNL Health Network RamseyCare MA Fee Schedule will
          be based on the State of Minnesota’s Medical Assistance Rates,
          as maybe modified horn time to time by NWNL Health Network.
          Changes to the NWNL Health Network RamseyCare MA Fee
          Schedule will be communicated in writing to the MA Provider
          thirty (30) days prior to the effective date of such changes.




                                        C-26

                            SERVICE DELIVERY REQUIREMENTS


     The Provider shall provide to Enrollees all Covered Services set

forth in section 3.o1 of the contract, and as clarified in this

appendix.



A.   Service    Requirements

     1.    prenatal Care Services

           As a means of reducing the number of low birth weight and
           preterm births occurring in the population eligible for MA,
           the Minnesota Department of Human Services (“DHSHI has
           instituted a special prenatal care initiative. This prenatal
           care initiative is designed to identify women who are at risk
           of having a low birth weight/preterm baby, assure increased
           access to prenatal care and provide additional services
           tailored to the special prenatal care needs of high risk
           pregnant women.     Consistent with the    fee-for-service

           requirements,       Provider must perform the following tasks:


           a.	    All pregnant women must be screened during their initial

                  prenatal care office visit to determine their risk of

                  poor pregnancy outcome.     A referral to the Women,

                  Infants, Children Supplemental Food and Nutrition

                  Program (WIC) should be made at this time.

           b.	    The DHS Prenatal Risk Assessment Form DHS-3060, or an

                  alternative form approved by DHS, must be completed at

                  this initial visit and forwarded to DHS within thirty
                  (30) days of the assessment, unless  directed other~’ise
                  by the     Health  Plan,  and   maintained   in   Provider’s   medical
                  records     for the Enrollee.

           c.     Those women who are identified at high risk (a score  of
                  10 or more points on the DHS Risk Assessment Form) must

                  be offered enhanced perinatal services.         Enhanced

                  perinatal   services    include: high   risk  antepartum

                  management,    prenatal    health  education,   prenatal

                  nutrition education, childbirth education, and a high

                  risk follow-up home visit.

     2.	   Earlv and Periodic Screenin~, Diaanosis and Treatment                 (EPSDTL
           Services/Child and Teen Checkups

           EPSDT is a comprehensive screening program provided to a
           recipient under the age of 21 to     identify a potentially
           handicapping condition and to provide for diagnosis and
           treatment of specific medical conditions. The intent of the
           EPSDT Program is to provide the standards by which children
           receive preventive health care and early interventive


                                            C-27

           services.    DHS recommends that the provision of EPS
           services become a regular part of ongoing well child car
           physical exams.   The following EPSDT services are currentl
           covered by MA when performed in accordance with EPSDT progra
           standards:


           Q      Health history
           �      Assessment of physical growth
           �      Physical examination
           �      Oral examination
           �      Vision evaluation
           .      Hearing evaluation
           �      Developmental screening
           .      Sexual development
           .      Nutritional assessment
           �      Immunizations
           .      Laboratory       tests
           .      Health     education

     The obligations       of   the   Provider      with   regard   to   EPSDT services   a
     described    below.

     a.	   The Provider must notify Enrollees under the age of 21 of t
           availability of EPSDT services.

     b.	   The Provider must provide all of the required scre~~n
           components according to the EPSDT standards and perlod~cl
           schedule as directed by the Health Plan.   The Provider m
           offer additional preventive  services beyond  these minim
            standards.


     c.	   The Provider must record the results of the EPSDT heal
           screening on the EPSDT Child Screening Form (DHS-1973) a
           forward the top copy of the form to DHS within thirty (3
            days of the assessment.

3.   Mental Health and Chemical De~endencv                  (MH/CD) Services


     The Provider i.sresponsible for referring MH/CD services as need
     by Enrollees to MA Participating Providers who are MH/CD provide
     as determined by the Health Plan.


4.   Servinq Minority and S~ecial Needs Populations                          “

     The Provider must provide or arrange to provide appropria
     services for the following special needs groups when required

     requested. If the Provider already provides specialized servic
     to the following populations as described in this section, th
     the Provider agrees to make these services available to Enroll

     served pursuant to this Agreement.       If the Provider does n
     provide   such   specialized   services, the Provider will ma
     arrangements   with  the  Health  plan to assure that appropri
     services are  delivered.



                                                 c-2a

a.     Seriouslv and Persistently Mentallv ill fSPMI)L       ong
       medications review and monitoring day treatment and o
       ‘milieu”   alternatives   to    conventional   therapy,

       coordination with the individual~s case manager to as
       appropriate utilization of all needed psychosocial servic
b.
    Elderlv. ~hvsicallv handicam ed and chronically ill:            in

       services, neurological assessments.

c.
    Abused    children     and  adults,     abusive   individu
       comprehensive    assessment  and    diagnostic  services

       specialized treatment techniques for victims and perpetra
       of maltreatment (physical, sexual, emotional).


d.
    Southeast Asians and other ~rou?m with langu a~e barri
       interpreter services, bilingual staff, culturally appropr
       assessment and treatment. Whenever an individual reques

       interpreter in order to obtain health care services,
       individual must be provided with access to an interprete
e.
    Cultural and racial minorities:       culturally approp
       services rendered by Clinic Professionals with sp
       expertise in the delivery of health care services to
       various cultural and racial minority groups.

f.
    Dual M’H/WVelODEIent?!llV Disabled (DD1. or    /CD clie
       comprehensive assessment, diagnostic and treatment serv
       provided by staff who are trained to work with clients

       multiple disabilities and complex needs.


9“
    Lesbians and aav men:    sensitivity to critical social
       family issues unique to these clients.

h.
    Hearinq       im~aired:     access   to   TDD   and   hearing   imp
       interpreter     services.

 i.
   ~              eed o     end     snecific     c   treatm
       Enrollees must be provided with an opportunity to re
       MH/CD services from the same sex therapist and the optio
       participating  in an all    male/all   female group  th
       program.

 j.    Children and adolescents. i.ncludinu severelv and emotion
       disturbed (SED) children and children involved in the

       protection svstem:   services specific to the needs of

       groups, including day treatment,    home-based mental h
       services, and inpatient services.     The services which
       Provider delivers must be provided in the least restri

       clinical setting, individualized to meet the specific

       of each child, and designed to insure early identific
       and treatment of mental       illness.    Services mus
       coordinated with the child’s county case manager.




                                    C-29

     k.     Pevelornn entallv     Dlsabled      �
                                              (DD] ti specialized  mental health and
            habilitative      services     and other appropriate    services  covered
            by MA.       Such services      may include:    family planning services
            adapted to the special needs of the developmentally disabled

            population,    behavior   management,    rehabilitative   and

            therapeutic services, pain management, or genetic counseling.

            After an initial assessment, a written treatment plan must be

            developed for the Enrollee when appropriate.     As required,

            the treatment plans should provide access to a coordinated

            outpatient rehabilitation team, independent living skills

            training, ongoing medical skill rechecks, and services

            designed to maintain or increase function and prevent.further

            deterioration or dependency.    The treatment plan should be

            coordinated with available community resources and support

            systems, including the individual’s county DD case manager.

            The treatment plan must identify the persons responsible for

            providing services and a case manager.    For those Enrollees

            with   multiple   handicaps,  a  multidisciplinary   provider

            consultation should be arranged.  Although continuity of care

            should be a major consideration in the treatment planning

            process, referrals to specialists and subspecialists must be

            made when medically indicated.


B.   Enrollee

     ~

The Provider must insure proper MA Enrollee access to services and must

comply with all of the requirements listed below:

     1.	    Provider must agree to accept all eligible MA Enrollees who

            select or who are assigned to the Health Plan without regard

            to current or previous medical condition.

     2.	    Provider agrees to not set any enrollment limits on the
            number of MA recipients which it will     serve unless other
            arrangements are made with the Health Plan.
     3.	    MA Enrollees in the Health Plan may not be charged any

            deductible costs or be asked to make any copayments for

            covered services under PMAP.

     4.	    Provider may not discriminate against any MA Enrollee on the

            basis of: race, sex, color, religion, health ,status, a9e,

            handicap, national origin, public assistance status, or

            sexual orientation.

      5.	   Provider must insure that its services are accessible to

            handicapped MA Enrollees. A barrier-free service delivery

            access point must be available for Enrollees who use

            wheelchairs.





                                        C-30

       6.�    Provider    services   must be available   to MA Enrollees  to the
              same extent     that  such services  are available to the general
              population.      Some walk-in  or unscheduled clinic hours must be
              available each week to accommodate MA Enrollees who are ill.
       7.�    The Provider must have available a 24 hour/day number for

              Enrollees to call in case of an emergency.

       a.	    Upon request, Provider must arrange with the Health Plan for

              any Enrollee to obtain a second medical opinion by a MA

              Participating Provider, and an out of plan second medical
              opinion  for MH/CD  services,  when the Provider determines
              through the  initial  assessment process that no structured

              treatment is required.

       9.     Provider must insure Enrollee confidentiality, as required by

              Minnesota	 Statutes   Chapter   13   (1986), the    Minnesota

              Government Data Practices Act.

      10.     Provider must safeguard the confidentiality of certain

              services (i.e. family planning, diagnosis of pregnancy,

              diagnosis and treatment of sexually transmittable diseases,

              and MH/CD services) provided to Enrollees who are minors

              (under-age 21), to the-extent allowable by law.


c.     Case Management

Providerts case management system must be designed to coordinate the

provision      of services-      to Enrollees         and must promote          and assure        service
accessibility,         attention        to    individual       needs,       continuity         of    care,
comprehensive        -and     coordinated         service     delivery,         the     provision         of
culturally      appropriate       care     and fiscal      and professional          accountability.
At a minimum,         the. Providerts         case     management      system      must    incorporate
the following       elements:

        a.	    Procedures for the provision of an         individual needs

               assessment, the development of an individual treatment plan,

               the establishment of treatment objectives, the monitoring of

               outcomes, and a process to insure that treatment plans are

               revised as necessary.   These procedures must be designed to

               accommodate the specific cultural and linguistic needs of the

               Enrollees.

      b.	      A strategy to ensure that all Enrollees and/or authorized

               family members or guardians are involved in treatment

               planning and consent to the medical treatment.

      c.	      A method for coordinating the medical needs of an Enrollee
               with his/her social service needs.      This may involve working
               with county     social   service  staff   or with    the various
               community resources in the county.         Coordination with the
               county   social   service   staff will be required      when  the
               Enrollee   is in need of the following services:             case


                                                  C-31
. -.




             management for serious and persistent mental illness or

             seriously   emotionally   disturbed   children,    prepetition

             screening, preadmission screening or elderly waiver servicesl
             extended care    or halfway house services through the
             Consolidated Chemical Dependency Treatment Fund, child
             protection, court ordered treatment, or a state medical

             review team or social security disability determination.

       d.
   Procedures and criteria for making referrals to specialists

             and subspecialists.

       e.    Capacity to implement; when indicated, case management

             functions such as: individual needs assessment, including

             screening   for special needs      (e.g. mental health/chemical

             dependency problems, mental reta~dation~ high risk health
             problems,     difficulty    living    independently,    functional
             problems,   language or comprehension      barriers);   individual
             treatment    plan   development;    establishment    of  treatment
             objectives;    treatment   follow-up;   monitoring   of outcones;
             revision of treatment plan.

       f.
   Procedures for insuring that appropriate Clinic Professionals

             interact with the school districts and participate in

             developing   individualized   education   plans   (IEPs)   or

             individualized family service plans (IFSP) for school age

             Enrollees, and providing for transportation, if services in

             the IEP or IFSP are provided outside of the child’s school.





                                      C-32     -

